                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 1-13120060                                                           Page 1 of 1



         We received an allegation that a company 1 may have received duplicate funding for work
         through awards made by NSF and other federal agencies. A review of proposals and reports
         submitted by the company to NSF and the other agencies found no evidence of duplicate
         funding.

         This case is closed with no further action taken.




NSF OIG Fom1 2 (11102)
